        OFFICE OF JUSTICE PROGRAMS
   SERIOUS AND VIOLENT OFFENDER REENTRY
   INITIATIVE GRANT ADMINISTERED BY THE
DELAWARE DEPARTMENT OF HEALTH AND SOCIAL
                 SERVICES
           NEW CASTLE, DELAWARE

          U.S. Department of Justice
       Office of the Inspector General
                Audit Division
      Philadelphia Regional Audit Office

         Audit Report GR-70-10-001
               November 2009
                 OFFICE OF JUSTICE PROGRAMS
   SERIOUS AND VIOLENT OFFENDER REENTRY INITIATIVE GRANT
                    ADMINISTERED BY THE
    DELAWARE DEPARTMENT OF HEALTH AND SOCIAL SERVICES
                   NEW CASTLE, DELAWARE

                               EXECUTIVE SUMMARY

      The U.S. Department of Justice Office of the Inspector General (OIG),
Audit Division, has completed an audit of the Office of Justice Programs
(OJP), Corrections Program Office (CPO), Serious and Violent Offender
Reentry Initiative (SVORI) grant 2002-RE-CX-0008 and two supplements to
the Delaware Department of Health and Social Services (DHSS) awarded by
the Bureau of Justice Assistance (BJA). 1 DHSS received a total of
$2,603,234 from the grant to develop and implement institutional and
community corrections-based offender reentry programs through
collaborative partnerships with government, social service, faith-based, and
community organizations in order to reduce recidivism, increase public
safety, and successfully reintegrate serious and violent offenders back into
the community. The objective of the grant was to assist in the reintegration
of returning high-risk offenders residing in the state of Delaware.

      The objective of our audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the grants. We also evaluated the DHSS’s program
performance in meeting grant goals and objectives and overall
accomplishments.

      We determined that the DHSS was in material non-compliance with
the grant requirements we tested. Specifically, we reviewed the DHSS’s
compliance with seven essential grant conditions and found material
weaknesses in the DHSS’s management of grant expenditures and
monitoring of contractors.

      For the grant, we found $287,154 in charges made to the grant that
were unallowable. We also found that the DHSS was unable to support
$412,562 in grant expenditures. As a result, we questioned $699,716 in
grant-related expenditures. We also found a lack of adequate contractor


       1
         Throughout the report, the grant and two supplements will be referred to as
the “grant”.


                                           -2-
monitoring performed by the DHSS and, as a result, we questioned
$2,592,091 in contractor payments.

      In addition to the questioned costs, we made three management
improvement findings related to financial and program reporting and
program performance. Specifically, we determined that the DHSS did not
submit Financial Status Reports and progress reports on time. We also
found that progress reports did not report complete information. Lastly, the
DHSS did not meet the goals and objectives of the grant and, most
importantly, failed to ensure the program was sustained after the grant
funding ended.

     These items are discussed in detail in the Findings and
Recommendations section of this report. Our audit objectives, scope, and
methodology for this audit appear in Appendix I.

      We discussed the results of our audit with officials at the DHSS and
have included their comments in the report, as applicable. Additionally, we
requested a response to our draft report from the DHSS and OJP, and their
responses are appended to this report as Appendix III and IV, respectively.
Our analysis of both responses, as well as a summary of the actions
necessary to close the recommendations can be found in Appendix V of this
report.




                                    -3-
